                          SENSITIVE BUT UNCLASSIFIED




                      UNITED STATES DEPARTMENT OF STATE
                  AND THE BROADCASTING BOARD OF GOVERNORS

                             OFFICE OF INSPECTOR GENERAL


ISP-IB-13-26                         Office of Inspections                           May 2013


MEMORANDUM
TO:                 IBB - Richard M. Lobo
FROM:               OIG - Harold W. Geisel
SUBJECT:            Review of Broadcasting Board of Governors' Operations in Baghdad, Iraq


Executive Summary

        The Office of Inspector General (OIG) found no serious management issues at the Radio
Free Europe/Radio Liberty (RFE/RL) grantee's news bureau of Radio Free Iraq (RFI) or the
Middle East Broadcast Network (MBN) grantee operations in Baghdad. Employees at both
offices were troubled, however, by uncertainty over budgets, salaries, and a possible merger of
operations. RFI employees were most concerned with the rumored closure of their bureau, and
MBN employees were vocal about the need for new office space, an unclear budget, and some
gaps in communication with officials at MBN headquarters. The broadcasting news bureaus are
to a large degree implementing many of the goals of the Broadcasting Board of Governors
(BBG) Strategic Plan 2012-2016, Impact through Innovation. The staff did not express any
security concerns.

Purpose, Scope, and Methodology

       In connection with the OIG inspection of Embassy Baghdad, an inspector reviewed BBG
operations in Iraq, focusing on interviews with RFI and MBN news staff. The RFI bureau chief
was not in Iraq during the inspection, but this memorandum incorporates information from email
communication with him. The inspector also exchanged email communication with Radio Free
Europe/Radio Liberty and MBN senior staff. The survey phase of the inspection took place in
Washington, DC, between January 24 and 30, 2013, and the on-site inspection in Baghdad, Iraq,
between February 2 and March 10,2013.




                                            Page I of3

                          SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

ISP-I8-13-26         Review of Broadcasting Board of Governors' Operations in Baghdad, Iraq   May 2013



Issues regarding Merger of the Broadcasting Entities-RFI and MBN

        BBG identified the proposed merger of RFI and MBN and security at both bureau sites as
the main issues for the inspection. The employees of the bureaus had heard rumors about such a
pending merger but said they had no concrete information about a time line or other details, such
as those in BBG's FY 2013 Budget Request. Interviews with the staffalso revealed that none
had heard anything specific regarding a reduction ofRFI or MBN positions. The threat of
reductions in force may adversely affect morale and encourage some employees to seek
employment elsewhere. A generally accepted management principle is to keep employees fully
informed of changes that will impact operations. At the time of the inspection, given the
uncertainties with the passage ofBBG's FY 2013 budget in Congress, it is possible that the
senior staff at RFE/RL, MBN, and BBG could not share any information with the news bureau
personnel. BBG senior managers plan to work with RFE/RL and MBN to develop a strategic
merger plan based on the budget request. BBG will also ask RFE/RL and MBN to consult with
affected employees earlier in the budget process, providing clear information on the possible
outcomes should Congress support the merger.

         Informal Recommendation 1: The Broadcasting Board of Governors should direct
         Radio Free Europe/Radio Liberty and the Middle East Broadcast Network to implement a
         strategic merger plan based on its FY 2013 Budget Request, with details on budgets,
         staffing, and milestones and distribute this plan to affected employees in English and
         Arabic.

Middle East Broadcast Network Issues

        The main concern at MBN was the inadequacy of the bureau space. The basement space
is physically unattractive, susceptible to flooding, and lacking both a room for cameramen and a
conference room, so that morning strategy meetings are held standing up in the foyer. MBN
management at headquarters has been exploring bureau relocation options for about 2 years.

        The inspector put MBN management in touch with personnel in Embassy Baghdad about
the possibility of having the news bureau within the international zone. The inspector encourages
MBN management to continue exploring these relocation options for a merged MBN-RFI
bureau.

      The MBN staff brought to the attention of the inspector two important issues: better
communication with MBN headquarters personnel and long-term salary. MBN senior officials at
headquarters are aware of these issues and are addressing them accordingly.

Implementing the Broadcasting Board of Governors' Strategic Plan 2012-2016

        The RFI and MBN news bureaus are implementing several goals ofBBG's 5-year
strategic plan although they are unfamiliar with the details of the plan. For example, all the
stations are active in media training, which supports goal # 11, Spur Development through
Targeted Media Initiatives and Training. RFI trains Iraqi journalists in multimedia reporting in
collaboration with the Institute of War and Peace, and Alhurra TV has trained journalism
students at Baghdad University and provided them hands-on internships in the bureau. MBN has

                                                  Page 2 of3

                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

ISP-IB-13-26         Review of Broadcasting Board of Governors' Operations in Baghdad, Iraq   May 2013



trained women political candidates on using the media in a joint project with a nongovernmental
organization in Erbil.

         Alhurra TV's programs geared to women and Radio Sawa's youth-oriented music format
fulfill many aspects of goal #3, Seize Targeted Growth Opportunities. RFI has the Youth
Mesopotamia and Open Windows programs styled for youth and women and cites its dialogues
on democracy and combating extremism. These programs also support goal #4, Prioritize
Support for Democracy and Countering Pockets of Extremism
                                                   Extremism..

Security Issues

        The chiefs of RFI and MBN are satisfied with the security profiles of their offices, which
are located in secure compounds with professional armed guards. The embassy regional security
officer does not engage with RFI and MBN but is available for advice about the physical security
of their locations.

          I would be happy to meet with you to discuss this matter further, or your staff may
contact Robert Peterson, Assistant Inspector General for Inspections, by email at
~
                                                   (b)(2)(b)(6)
(b)(2)(b)(6)@state.gov or by telephone on 202-663_
                                          202-663-



cc:     Kelu Chao, Director, International Broadcasting Bureau
        Barbara Tripp, Management Analyst, International Broadcasting Bureau




                                                 Page 3 of3

                             SENSITIVE BUT UNCLASSIFIED
